No.

IN THE SUPREME COURT OF THE UNITED STATES

LEANDRE JENNINGS, Petitioner,
vs.

STATE OF NEBRASKA, Respondent.

On Petition for Writ of Certiorari to

The Nebraska Supreme Court

PETITION FOR WRIT OF CERTIORARI

Thomas C. Riley
Counsel of Record

Public Defender for Douglas County, Nebraska
1819 Famam Street
H05 Civic Center

Omaha, Nebraska 68183

(402)444-7175

Question Presented

1) Whether, in cases wherein a statute requires judicial approval before law enforcement may
conduct a search, the reviewing court, before determining if good faith applies, must use the test
set forth in United States v. Leon, or the test set forth in Illinois -v. Krull.

1.

List of Parties

All parties appear in the caption of the case on the cover page.

11.

Table of Contents

OPINION BELOW.

.1

STATEMENT OF JURISDICTION.

.1

CONSTITUTIONAL PROVISION INVOLVED.

.1

STATEMENT OF THE CASE.

.1

REASONS FOR GRANTING THE WRIT.........................................................................3
Index of Appendices

NEBRASKA SUPREME COURT OPINION IN STATE V. JENNINGS............... App-A
DOCUMENTS PERTAINING TO JUDICIAL APPROVAL OF SEARCH OF

PETITIONER'S CELL PHONE RECORDS DATED FEBRUARY 21, 2017.........App-B
DOCUMENTS PERTAINING TO JUDICIAL APPROVAL OF SEARCH OF

PETITIONER'S CELL PHONE RECORDS DATED FEBRUARY 21, 2017.........App-C
AFFIDAVIT AND SEARCH WARRANT OF PETITIONER'S CELL PHONE

RECORDS DATED APRIL 11, 2018....................................................................... App-D
AFFIDAVIT AND SEARCH WARRANT OF PETITIONER'S CELL PHONE

RECORDS DATED MAY 8, 2018 ............................................................................App-E
TRIAL COURT ORDER RE: MOTION TO SUPPRESS......................................... App-F
Table^f Authorities

Carpenter v. U.S., _U.S._, 138 S. Ct. 2206, 201L. Ed. 2d 507 (2018).......................2
Illinois v. Krull 480 U.S. 340, 107 S. Ct. 1160, 94 L.Ed. 2d 364 (1987) ....................3,4,10
Neb. Rev. Stat.§ 29-812......................................................................................................8
U.S. v Chavez 894 F. 3d 593 (4th Cir. 2018).......................................................................7
U.S. v. Beverly 943 F.3d 225 (5th Cir. 2019).......................................................................7
U.S. v. Curtis 901 F. 3d 846 (7th Cir. 2018)........................................................................7
U.S. v.Pritchard964T.3d 513 (6thCi!. 2020)...................................................................7
United States v. Leon, 468 U.S. 897, 104 S. Ct. 3405, 82 L. Ed. 2d 677 (1984)............5,10

111.

PETITION FOR A WRIT OF CERTIORAM

Leandre Jennings respectfully petitions for a writ of certiorari to the Nebraska Supreme
Court in State v. Jennings No. S-l8-1136.
OPINION BELOW

The opinion of the Nebraska Supreme Court is reported at 305 Neb. 809, 942 N.W. 2d
753 (No. S-18-1136) and is attached at (App. A)
STATEMENT OF JUMSDICTION

The Nebraska Supreme Court issued its opinion on May 15, 2020 (App. A). This Court's
jurisdiction is invoked under 28 U.S.C. Sectionl257 (a).

CONSTITUTIONAL PROVISIONS INVOLVED
I.
The Fourth Amendment states that "The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be seized."
;?

II.
The Fourteenth Amendment states in pertinent part that"... nor shall any State deprive

any person of life, liberty, or property. Without due process of law. .."
STATEMENT OF THE CASE

The Petitioner, Leandre Jennings, was convicted by a jury of Murder in the First Degree,
Use of a Deadly Weapon (firearm) to Commit a Felony, and Possession of a Deadly Weapon by
a Prohibited Person. He was sentenced to consecutive sentences of life in prison, 30 to 40 years
and 40 to 45 years in prison respectively.

1

In the early evening hours of December 23, 2016, Michael Brinkman was shot and killed

in his home. Brinkman's wife and teenaged son were also in the residence at the time of the
shooting and reported that two masked men entered their residence, asked for money, and one of
the two intruders shot and killed Brinkman during a brief struggle. Neither Brinkman's wife nor

his son could identify the intruders because of their faces being covered. Petitioner Jennings was
developed as a suspect and police obtained cell site location information (hereafter referred to as

CSLI) from his cell phone provider, which information placed his cell phone at or near the site of
the homicide at the time of the shooting. The CSLI for his phone, identified as 402-850-5695,
was obtained via documents that are self identified as a search warrant obtained by police on
February 14, 2017. (App. "B" and "C") Although these documents are labeled as search
warrants, the body of the documents also reference the Federal Stored Communications Act, 18
U.S.C. Section 2703(d) (hereafter referred to as FSCA). Jennings was arrested on February 17,
2017, and charged with the aforementioned offenses.

Jennings filed a motion to suppress the CSLI, and a hearing was held on that motion. By
agreement of the parties, the trial court agreed to withhold its ruling until after the pending case
of Carpenter v. U.S. was decided by this Court. However, prior to this Court's decision in
Carpenter, the police obtained search warrants dated April 11, 2018,(App. "D") and May 8,
2018,(App. "E") for the CSLI that they already had in their possession pursuant to the earlier
order under the FSCA.

On June 22, 2018, this Court determined that individuals have a reasonable expectation

of privacy in their cell phones CSLI and that pursuant to the Fourth Amendment, a search
warrant, supported by probable cause, was required to obtain CSLI. Carpenter v. U.S.,
U.S._, 138 S. Ct. 2206, 201L. Ed. 2d 507 (2018). As a result, a second motion hearing was

2

held, and the trial court ruled that the affidavits in support of the 2018 search warrants provided
ample probable cause and particularity to pass Fourth Amendment scrutiny. The order of the trial
court (App. "F") analyzed the validity of the 2018 search warrants and did not address the initial
seizure, other than to interpret it as a court order under the FSCA. The trial court ruled that,

pursuant to Carpenter supra, the original seizure violated the Fourth Amendment. The trial court
further ruled that the subsequent 2018 search warrants were constitutionally sound and therefore
cured any error involving the initial seizure. Several months thereafter, the case went to trial and

a jury convicted Jennings on all charges.
On direct appeal, the Nebraska Supreme Court opted not to address the trial court's ruling
on the constitutional validity of the search warrant, and went directly to a determination that the
"good faith exception" to the exclusionary rule applied. Citing Illinois v. Krull 480 U.S. 340,

107 S. Ct. 1160, 94 L.Ed. 2d 364 (1987), the Nebraska Supreme court determined that the police
originally obtained the CSLI pursuant to a statute, i.e. the FSCA, that was later determined to be
unconstitutional. They therefore reasoned that the good faith exception as outlined in Krull

applied and suppression of the evidence was not appropriate. The Nebraska Supreme Court
concluded that the trial court did not err in denying Jennings motion to suppress, stating, "A
proper result will not be reversed merely because it was reached for the wrong reason."
REASONS FOR GRANTING THE WRIT

Pursuant to Carpenter, supra, both the trial court and the Nebraska Supreme Court were
forced to acknowledge that the original seizure of the Petitioner's CSLI was a violation of the
Fourth Amendment. However, the trial court's order that denied Petitioner's motion to suppress

is based entirely on that court's determination that the 2018 search warrants were constitutionally
sound. Conversely, the Nebraska Supreme Coiirt never addressed the validity of the search

3

warrants and determined that the good faith exception to the exclusionary rule applied to the
original seizure of the CSLI pursuant to what they described as a court order under the FSCA.
In affirming the trial court's decision to deny Petitioner's motion to suppress, the Nebraska
Supreme Court applied the good faith exception as set forth in Illinois v. Krull, supra.
In Krull, this Court stated that certiorari was granted ".. .to consider whether a good-faith
exception to the Fourth Amendment exclusionary rule applies when an officer's reliance on the
constitutionality of a statute is objectively reasonable, but the statute is subsequently declared

unconstitutional." Krull, supra. 480 U.S. 340,346,107 S. Ct. 1160, 1165,94 L. Ed. 2d 364. The
statute in question in Krull was a portion of the state's regulatory scheme for licensing dealers in
motor vehicles or automotive parts. The licensee was required to permit state officials to inspect
their records at any time and allow examination of the premises of the licensee's place of
business to determine the accuracy of their records. Pursuant to this statute, police inspected
vehicles in the licensees yard and determined that several of the vehicles were listed as stolen
vehicles. The licensees were arrested and charged with several offenses related to possession of
the stolen vehicles.

Prior to trial, the defendant in Krull filed a motion to suppress the fruits of the search
because on the day after the search occiirred, a federal court determined the statute to be
unconstitutional and a violation of the Fourth Amendment. The Illinois courts determined this

warrantless search violated the fourth amendment and that the good faith exception to the
exclusionary rule was limited to cases involving a police officer's good faith reliance on the
validity of a search warrant subsequently found to be constitutionally infirm.
This Court reversed and determined that the good faith exception does indeed apply to

the facts in Krull. The foundation of the Krull ruling is based on the premise that the

4

exclusionary rule is aimed at deterring future unlawful police misconduct. This Court reasoned
that just as in Lean, where the unlawful conduct was not that of police but rather of judicial
officers, good faith also applies to cases where the unlawful conduct is that of legislators, not
police.

In Krull this Court stated "Any difference between our holding in Leon and our holding
in the instant case, therefore, must rest on a difference between the effect of the exclusion of
evidence on judicial officers and the effect of the exclusion of evidence on legislators. Although
these two groups clearly serve different functions in the criminal justice system, those
differences are not controlling for piirposes of this case." Krull, 480 U.S.340,350, 107 S. Ct.
1160, 1167, 94L.Bd. 2d364(1987).
However, "those differences" are controlling for purposes of the present case. A search

under the applicable sections of the FSCA required court approval before police can undertake a
search for an individual's CSLI. On the other hand, law enforcement requires no prior court

approval to conduct a search pursuant to statutes similar to those that were the subject of this
Court's scrutiny in Krull. Therein lies the critical difference on how a reviewing court should
analyze cases involving law enforcement's searches pursuant to court authorized warrants or
orders versus those searches where no prior judicial authorization is required.

In United States v. Lean, 468 U.S. 897, 104 S. Ct. 3405, 82 L. Ed. 2d 677 (1984), this
Court held that the Fourth Amendment exclusionary mle should not be applied so as to bar the

use of evidence obtained by law enforcement acting in reasonable reliance on a search warrant
issued by a detached and neutral magistrate, even if the warrant is later determined to be invalid.
However, the Court was quick to point out that deference to the magistrate was not boundless
and identified several areas where suppression remains an appropriate remedy.

5

More specifically, the Court stated "Suppression therefore remains an appropriate remedy
if the magistrate or judge in issuing a warrant was misled by information in an affidavit that the
affiant knew was false or would have known was false except for his reckless disregard of the
truth... The exception we recognize today will also not apply in cases where the issuing
magistrate wholly abandoned his judicial role... in such circumstances, no reasonably well
trained officer should rely on the warrant. Nor would an officer manifest objective good faith in
relying on a warrant based on an affidavit so lacking in indicia of probable cause as to render
official belief in its existence entirely unreasonable... Finally, depending on the circumstances
of the particular case, a warrant may be so facially deficient—i.e., in failing to particularize the
place to be searched or the things to be seized—that the executing officers cannot reasonably
presume it to be valid".

Lean supra. 468 U.S. 897, 923, 104 S. Ct. 3405, 3421,82 L. Ed. 2d 677 (1984), (internal
cites omitted).

Thus, the reviewing court in a Leon situation must take the additional step of determining
if any of the exceptions to the good faith rule as outlined above, apply to the case under review.
This step is not necessary in cases with a fact pattern similar to that in Krull because the search is
conducted purely under the authorization granted by statute and no court intervention is required
to assess the validity of the search. In other words, law enforcement officers in said searches are
simply fulfilling their duty to enforce the statute as written. This varies significantly from the
scenario here, wherein judicial approval is mandated prior to execution of the search for cell
phone records.

Much like the approach taken by the Nebraska Supreme Court, appellate courts around
the country have failed to recognize the difference between the good faith exception to the

6

exclusionary rule in a Leon situation and that in a Krull situation. See U.S. v. Beverly 943 F.3d

225 (5th Cir. 2019), U.S. v. Pritchard 964 F.3d 513 (6th Cir. 2020), U.S. v Chavez 894 F. 3d 593

(4th Cir. 2018), and U.S. v. Curtis 901 F. 3d 846 (7th Cir. 2018). These courts have simply made
the erroneous determination that since the searches stem from authorization provided in federal
statute, that Krull is the appropriate precedent to rely upon to apply the good faith exception.
These decisions fail to recognize that the FSCA does not grant authority to law enforcement to
make the unilateral decision to conduct a search for CSLI. To conduct such a search under the

FSCA, law enforcement was first required to get court authorization. That fact makes Krull
inapplicable. Thus, any reliance on good faith must also pass scrutiny under the exceptions to the
good faith rule set forth in Leon, supra.

A review of the court documents authorizing the search for Jennings CSLI clearly
demonstrates that the magistrate wholly abandoned his judicial role and served as a rubber stamp
for police. "A magistrate failing to manifest that neutrality and detachment demanded of a
judicial officer when presented with a warrant application and who acts instead as an adjunct law
enforcement officer cannot provide valid authorization for an otherwise unconstitutional

search. Leon supra, 468 U.S. 897,914,104 S. Ct. 3405, 3416, 82 L. Ed. 2d 677 (1984).
The documents authorizing the search for Petitioner's CSLI include are self-identified as

"Affidavit and application for Issuance of a search warrant for cellular records" and "Search
warrant for Cellular Records". Although the affidavit states "That the officer has just and
reasonable grounds to believe..." that the cell records contain evidence of the homicide, the
affidavit concludes "Wherefore the officers pray that a search warrant be issued according to
law." Furthermore, the magistrate approved of a document identified as a search warrant. The
document asserts that the court has jurisdiction pursuant to Section 29-812 of Nebraska statutes.

7

That statute states "A search warrant... may be issued by any judge of the county court, district
court. Court of Appeals, or Supreme Court for execution anywhere within the State of Nebraska
or for service upon any publicly or privately held corporation. .. located within or outside the
State of Nebraska". Neb. Rev. Stat. Section 29-812.

The document further states "That based upon the sworn affidavit and application of
issuance for a search warrant of Officer Derek Mois.. . that there is probable cause..." to believe
that evidence of the homicide will be found in the cell phone records. The document then
continues "The Court finds that the applicant has offered specific and articulable facts showing
that there are reasonable grounds to believe that the records or other information sought are
relevant and material to an ongoing criminal investigation." The document then states "You are
therefore ordered pursuant to Title 18 United States Code Section 2703(d) that..." the cell
provider turn over the Petitioners cell records. Finally the document states that this "search
warrant be executed forthwith."

These documents are at best confusing, and at worst indecipherable. To perform the
function of a neutral and detached magistrate must require, at a minimum, that the magistrate at
least read the affidavit and "search warrant" or "court order" before approving it. It is abundantly
clear that the magistrate in this case truly acted as a rubber stamp for the police and totally
abandoned any semblance of neutrality or detachment. No police officer who actually read these
documents could reasonably believe that they are constitutionally valid. The police obtained the
CSLI employing shoddy work and capitalized on the egregious ambivalence of the magistrate to
Fourth Amendment protections. The documents authorizing the original seizure are obviously
boilerplate documents drawn up by the Omaha police department and are likely to be replicated

8

in future requests for cell phone records of suspects. Suppression of the CSLI in this case is the
only way to deter future police conduct of this type.

A second exception to the application of the Leon good faith rule is also applicable to this
case. The 2017 document authorizing seizure in this case is so patently overbroad that no officer
could reasonably rely on its validity. The documents providing court authorization state as

follows, "IT is further ordered, that any other person, device, computer, and/or number that is in
communication with the target device shall be considered part of the criminal investigation and

shall require the disclosure of the data in Part A and Part B from any provider of electronic
communications services as defined by 18 U.S.C. § 2510(15) and Nebraska Revised Statute 86-

277. This shall also include the target device roaming or utilizing or utilizing any electronic
communications service provider's network and/or antennas, regardless of carrier or provider".
This order authorizes police to obtain virtually all cell phone records for any and all
device that came into contact with the target device during the two plus months for which the

document authorizes the seizure. This portion of the authorizing document is so blatantly
overbroad and lacking in particularity, that no neutral and detached magistrate could possibly
authorize police to conduct a cyberspace dragnet of this magnitude. One need only look at the
2018 search warrants, which include the exact same language, to conclude that suppression is
appropriate to deter future police misconduct.
CONCLUSION

Petitioner prays that this court grant his petition for a writ of Certiorari to address the
question presented and rule that

1. In cases where statutes allow police to search persons, places, or things but require
court authorization before conducting the search, a reviewing court cannot rely solely

9

on Illinois v. Krull supra, and must apply the exceptions to good faith set forth in
United States v. Leon supra;

2. That the magistrate in this case wholly abandoned his responsibility to act in a neutral
and detached capacity but rather acted as a rubber stamp for the police;
3. That no reasonable police officer could rely on the validity of the judicial
authorization received because the documents in support of and granting judicial
authorization are indecipherable and fail to distinguish whether it is a search warrant
or a court order under the FSCA;

4. That no reasonable police officer could rely on the validity of judicial authorization
because the document granting judicial authorization is obviously overbroad and
lacks particularity;
5. That this Court should reverse and remand this case for a new trial or, in the

alternative, remand to the Nebraska Supreme Court instructing that body that reliance
on Illinois v. Krull is erroneous and require it to review the 2017 authorization for
collecting CSLI applying the exceptions to good faith set forth in Leon.
RESPECTFULLY SUBMITTED:

/^w^

^7

'Thomas C.Riley,# 13 523 /
Douglas County Public Defen4er
Attorney for Petitioner

10

